<html>
<title> - NOMINATION OF DELMOND WON TO BE A FEDERAL MARITIME COMMISSIONER</title>
<body><pre>[Senate Hearing 106-1118]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1118
 
    NOMINATION OF DELMOND WON TO BE A FEDERAL MARITIME COMMISSIONER
=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation








                           U.S. GOVERNMENT PRINTING OFFICE
82-360                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2000....................................     1
Statement of Senator Burns.......................................     9
Statement of Senator Breaux......................................     9
Statement of Senator Hollings....................................     9
Statement of Senator Hutchison...................................     9
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Gorton......................................     9
Statement of Senator McCain......................................     1

                                Witness

Won, Hon. Delmond J. H., Commissioner, Federal Maritime 
  Commission.....................................................     2
    Prepared Statement...........................................     3
    Biographical Information.....................................     4








    NOMINATION OF DELMOND WON TO BE A FEDERAL MARITIME COMMISSIONER

                              ----------                              


                        THURSDAY, JUNE 15, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.
    Staff members assigned to this hearing: Rob Freeman, 
Republican Professional Staff; Virginia Pounds, Republican 
Professional Staff; Carl Bentzel, Democratic Counsel; and 
Jonathan Oakman, Democratic Staff Assistant.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Commerce Committee meets 
today to examine the qualifications of Delmond Won, who has 
been nominated to serve a second term as a Commissioner of the 
Federal Maritime Commission (FMC).
    This Committee takes its advise and consent role seriously. 
I know Mr. Won has responded in detail to the Committee's 
request for biographical and financial data. Mr. Delmond Jack 
P. Won of Hawaii has served as commissioner since being 
appointed to the FMC in 1994.
    Prior to his appointment, Mr. Won was self-employed as a 
private consultant. He has also served as a member of the 
Hawaii State Land Use Commission and as Vice President and 
Treasurer of Hawaii Pacific Industries, Incorporated. Mr. Won 
graduated from the University of Hawaii School of Engineering 
and the University of Hawaii Graduate School of Business.
    Mr. Won, I welcome you. I would like to take this 
opportunity to thank you for being here. I know your 
renomination is a great honor and that your family is very 
proud. If you would like to introduce your family, you may 
identify them here today.
    Mr. Won. My family was not able to be here, Mr. Chairman.
    The Chairman. Then I will not introduce them.
    [Laughter.]
    The Chairman. I know that a special friend of yours would 
like to say a few words. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman.
    Mr. Chairman, I wholeheartedly support the nomination of 
Commissioner Won to a second term on the FMC. I am confident 
that Commissioner Won will continue to fulfill his duties with 
distinction and dedication.
    Mr. Chairman, I ask that the full statement of my statement 
in support be made a part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I am pleased and honored to introduce Federal Maritime Commissioner 
Delmond Won, the President's nominee for a second term as a Federal 
Maritime Commissioner. He has served as a Commissioner since August 18, 
1994 and was nominated for a second term in April of last year. 
Commissioner Won's experience at the Federal Maritime Commission (FMC) 
and his private sector background make him well-suited for this 
position.
    Commissioner Won's extensive experience in financial and marketing 
analysis in evaluation of business opportunities and capital investment 
alternatives that have benefitted him in the fulfillment of his duties 
as Federal Maritime Commissioner. During his nearly six years on the 
FMC, Commissioner Won has worked diligently to ensure fair, equitable, 
and open seaborne trade between the U.S. and other nations.
    If given the privilege to continue to serve our nation as a member 
of the Federal Maritime Commission, I am confident Commissioner Won 
would continue to fulfill his duties with dedication and distinction. I 
wholeheartedly support the nomination of Commissioner Delmond Won to a 
second term on the FMC. I ask my colleagues for their favorable 
consideration of his appointment to the FMC.

    The Chairman. Thank you very much. Mr. Won, please proceed.

  STATEMENT OF HON. DELMOND J. H. WON, COMMISSIONER, FEDERAL 
                      MARITIME COMMISSION

    Mr. Won. Thank you. Mr. Chairman, distinguished members of 
the Committee, I am honored to be here today to be considered 
for another term of service on the Federal Maritime Commission. 
At the time of my first appointment I felt that my background 
of having served both as part of a regulated company and as a 
State regulator would be beneficial in carrying out the duties 
of this position.
    After having served in my position for the past almost 6 
years now, I have learned that I was only partially correct in 
my assumption. While my experiences in Hawaii were most helpful 
in understanding the process of regulation, what I was not 
prepared for was the much larger number of variables that need 
to be considered and the more global nature of the impact of 
some of our decisions.
    I suppose I should not have been surprised, because the 
global impact of some of our decisions only reflect the 
increase in globalization of not only the world's economy but 
also of the world society. This growing interdependence of 
countries only increases the importance of the role of our 
maritime industry, as I believe that ocean transportation of 
goods is and will continue to be for the foreseeable future the 
most fundamental element of our transportation infrastructure 
serving our global economy.
    Within the context of this economy, the Federal Maritime 
Commission's role as defined and recently affirmed by Congress 
is:
    1) to establish a nondiscriminatory regulatory process for 
the common carriage of goods by water in the foreign commerce 
of the United States with a minimum of Government intervention 
and regulatory cost;
    2) to provide an efficient and economic transportation 
system in the ocean commerce of the United States that is 
insofar as possible in harmony with and responsive to 
international shipping policies;
    3) to encourage the development of an economically sound 
and efficient United States flag liner fleet capable of meeting 
national security needs; and
    4) to promote the growth and development of United States 
exports through competitive and efficient ocean transportation 
and by placing a greater reliance on the marketplace.
    In having had the opportunity to carry out these 
responsibilities since my first appointment in 1994, I can 
honestly say that my confidence in my abilities has grown as 
well as my deep appreciation for the difficulties that 
oftentimes arise in trying to strike a balance of fairness.
    I realize that regulations can and must change to keep up 
with the changing marketplace, but it is my belief that the 
ultimate purpose of regulation is to impart a sense of fairness 
to that marketplace. That was my conviction and commitment in 
1994, and it remains unchanged to me as you consider me for 
confirmation.
    I would like to take this time also to thank those in the 
industry who have supported me in the years that I have served 
thus far, and also my colleagues, three of whom are here today, 
Commissioners Merck and Moran, and Chairman Creel.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Won follow:]

      Prepared Statement of Hon. Delmond J. H. Won, Commissioner, 
                      Federal Maritime Commission
    Mr. Chairman and distinguished Members of the Committee, I am 
honored to be here today to be considered for another term of service 
on the Federal Maritime Commission.
    At the time of my first appointment, I felt that my background of 
having served both as part of a regulated company and as a state 
regulator, would be beneficial in carrying out the duties of this 
position.
    After having served in my position for the past almost six years 
now, I learned that I was only partially correct in my assumption.
    While my experiences in Hawaii were most helpful in understanding 
the process of regulation, what I was not prepared for was the much 
larger number of variables that need to be considered, and the more 
global nature of the impact of some of our decisions.
    I suppose that I should not have been surprised because the global 
impact of some of our decisions only reflect the increasing 
globalization of not only the world's economy, but also of the world's 
society. This growing interdependence of countries only increases the 
importance of the role of our maritime industry as I believe that ocean 
transportation of goods is and will continue to be for the foreseeable 
future, the most fundamental element of our transportation 
infrastructure serving our growing, global economy.
    Within the context of the growing, global economy, the Federal 
Maritime Commission's role as defined and recently reaffirmed by 
Congress is:

        1) Lto establish a nondiscriminatory regulatory process for the 
        common carriage of goods by water in the foreign commerce of 
        the United States with a minimum of government intervention and 
        regulatory costs;

        2) Lto provide an efficient and economic transportation system 
        in the ocean commerce of the United States that is, insofar as 
        possible, in harmony with, and responsive to, international 
        shipping practices;

        3) Lto encourage the development of an economically sound and 
        efficient United States-flag liner fleet capable of meeting 
        national security needs; and

        4) Lto promote the growth and development of United States 
        exports through competitive and efficient ocean transportation 
        and by playing a greater reliance on the marketplace.

    In having had the opportunity to carry out these responsibilities 
since my first appointment in 1994, I can honestly say that my 
confidence in my abilities has grown, as well as my deep appreciation 
for the difficulties that oftentimes arise in trying to strike a 
balance of fairness.
    I realize that regulations can and must change to keep up with the 
changing marketplace, but it is my belief that the ultimate purpose of 
regulation is to impart a sense of fairness to the marketplace.
    That was my conviction and commitment in 1994, and it remains 
unchanged today as you consider me for confirmation.
                      a. biographical information
    1. Name: Delmond J.H. Won.
    2. Position to which nominated: Commissioner.
    3. Date of nomination: April 12, 1999.
    4. Address: Home: 3 Oak Brook Court, Stafford, VA 22554. Office: 
Federal Maritime Commission, 800 North Capitol St., N.W., Washington, 
D.C. 20573.
    5. Date and place of birth: 11/18/53, Honolulu, Hawaii.
    6. Marital status: Married to the former Deanna N. Maruyama.
    7. Names and ages of children: Samantha G. L. Won, 10; Trevor W. K. 
Won, 6.
    8. Education: University of Hawaii Graduate School of Business, 
1975-77, MBA; University of Hawaii School of Engineering, 1972-75, BS; 
Columbia University School of Applied Science, 1971-72; and Iolani 
School, 1965-71, High School Diploma (college preparatory).
    9. Employment record: 1994-present, Commissioner, Federal Maritime 
Commission; July 1990-1994, member, Hawaii State Land Use Commission; 
September 1, 1993-1994, self-employed private consultant (consulting 
work clients include Young Brothers, Ltd., and Frederic R. Harris, 
Inc.); September 21, 1990-August 23, 1993, vice president and 
treasurer, Hawaii Pacific Industries, Inc.; February 1, 1987-September 
15, 1990, Director, Planning and Regulatory Affairs, Hawaiian Tug and 
Barge Corp./Young Brothers, Ltd.; October 1, 1985-January 31, 1987, 
Manager, Government Affairs, Young Brothers, Ltd.; May 1, 1985-
September 30, 1985, Regulatory Affairs Administrator, Hawaiian Electric 
Co.; April 1, 1984-April 30, 1985, Manager, Customer Service and 
Planning, Young Brothers, Ltd.; September 1, 1979-March 31, 1984, 
Manager, Planning and Analysis, Young Brothers, Ltd.; and February 6, 
1977-August 31, 1979, Marketing Assistant and Analyst, Dillingham 
Maritime, Pacific Division.
    10. Government experience: Member, Hawaii State Land Use Commission 
(July 1, 1990-June 30, 1994).
    11. Business relationships: Presently a co-owner of residential 
property in Hawaii which is being rented. Also a part owner of Q Corp, 
an inactive corporation registered in Hawaii.
    12. Memberships: Am currently not a member of any professional, 
fraternal, scholarly, civic, business, charitable or any other 
organizations.
    13. Political affiliations and activities: (a) Have not held any 
office with a political party nor have I held any public office for 
which I had been a candidate. (b) I am currently a member of the 
Democratic Party, but have not held any office (c) $1,000 contribution 
to the Democratic National Committee during 1996. $1,000 contribution 
to Gore 2000, Inc.
    14. Honors and awards: None.
    15. Published writings: None.
    16. Speeches: See attached copies of all speeches given during 
first term.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    17. Selection: (a) I believe that I have been selected for 
reappointment to the Federal Maritime Commission because I have 
demonstrated that I am capable of understanding the relevant issues as 
well as exercising sound judgment in deciding matters that come before 
the agency. (b) I believe that my experiences with both a regulated 
common carrier and with a regulatory agency while in Hawaii has given 
me a somewhat unique perspective of what regulation means to the public 
interest. While my understanding of regulation was developed while in 
Hawaii, my past four years with the Federal Maritime Commission have 
broadened my understanding to include the international aspects of the 
maritime industry.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? All such relationships were severed at the 
time of my initial appointment to the Federal Maritime Commission.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. I have no such plans, commitments 
or agreements.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? I have no such plans, commitments or agreements.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your fill term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Should 
any potential conflict of interest present itself in any matter that 
comes before the Federal Maritime Commission, I would disclose the 
potential conflict and either recuse myself or let the parties to the 
proceeding decide whether or not recusal is necessary, whichever is 
appropriate.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. As an officer 
of Young Brothers, Limited during the period 1987 to 1990, I regularly 
represented the company during proceedings before the Hawaii Public 
Utilities Commission. The last major case I presented on behalf of the 
company before the Hawaii Public Utilities Commission dealt with the 
definitional and jurisdictional differences between interstate and 
intrastate commerce. I also represented the company in a proceeding of 
the U.S. Maritime Administration regarding the application of American 
President Lines to serve Hawaii. The scope of my testimony involved the 
company's ability to transship the cargo of American President Lines to 
the various Hawaiian islands. Finally, while employed by Hawaii Pacific 
Industries, Inc. I was involved in an arbitration regarding the 
performance of the contractor relative to a construction contract.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, to the 
extent my position allows me to.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the extent my position 
allows me to.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes, to 
the extent my position allows me to.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. Having worked for a company that was regulated by the Hawaii 
Public Utilities Commission allowed me to learn how a private 
enterprise is impacted by various regulations. Having served as a 
member of the Hawaii Land Use Commission allowed me to become much more 
sensitive to the public interest standard that we were charged with 
protecting. Between these two experiences, I believe that I have a 
unique background of understanding what it is to be both regulated and 
a regulator. Given this background, I feel that I am better suited than 
most to make balanced decisions not only on the merits of specific 
regulations, but also in the administration of the regulations that are 
in place. Additionally, my past four years on the Federal Maritime 
Commission has given me more understanding of how international issues 
and considerations fit into the regulatory scheme.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Having held the position for the last 
four years, I feel that I am well equipped to continue carrying out the 
responsibilities of the agency.
    3. Why do you wish to serve in the position for which you have been 
nominated? I have for a long time, and continue to believe that public 
service is an honorable and rewarding thing to do. That belief, 
combined with my private sector experiences in the maritime industry, 
makes me feel like I have something meaningful to contribute to the 
position.
    4. What goals have you established for your first two years in this 
position, if confirmed? Since my situation is one of reappointment, I 
would aim to contribute as much as I can to resolving the major issues 
presently before us, such as the matter of discriminatory port 
practices in Japan, possible discriminatory business practices in 
China, possible unlawful practices by carriers in the Trans-Pacific 
trades, and implementation of the Ocean Shipping Reform Act.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. 
While this is an extremely complex question to deal with, I will state 
generally that government's primary role is to insure equal opportunity 
to all of our country's citizens to what society happens to define as 
basic, essential rights. Of course, the difficulty here is that our 
definition of basic, essential rights can and will differ with time. 
Fundamentally, Government should decide whether or not to get involved 
in a matter based on whether or not it perceives that any of these 
basic, essential rights are being unfairly denied to any particular 
individual or class of individuals.
    It would be extremely difficult for me to get more detailed than 
this because (I recognize that there will be many differences in 
opinion as to whether something would be defined as a right or a 
privilege.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. In its 
simplest terms, the agency's mission is to insure a level playing field 
for all participants in the U.S./international maritime industry. I 
believe that the major programs for the agency will be in the policing 
over discriminatory practices on the part of foreign governments and 
gaining a solid understanding of the foreign governments and gaining a 
solid understanding of the economic impacts of industry trends to 
prevent market power abuse. Our economic impacts of industry trends to 
prevent market power abuse. Our major operational objectives must be to 
review and revise our rules and regulations to capture the true intent 
of the recently passed Ocean Shipping Reform Act.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. As the economy becomes more and more global, and as countries 
become more and more interdependent, we as a country must attempt to 
come to some kind of agreement as to the kind of role we want ocean 
transportation to play. How important we view what I often refer to as 
the most fundamental element of transportation infrastructure for 
international trade, the maritime industry, will determine what kind 
of, if any regulatory scheme is needed.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? I'm not certain that there would be any 
outside forces that could prevent the agency from accomplishing its 
mission unless one would consider the lack of sufficient funding an 
outside factor. My experiences in the private sector has taught me that 
if you want to be successful in the face of significant change as the 
agency is facing with the passage of the Ocean Shipping Reform Act, you 
have to focus internally to make sure your resources are properly 
allocated and that all your people fully understand what the agency's 
new role is and what their individual roles are. I believe that these 
are the most important issues for our agency.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? While I feel that the agency has been 
fairly successful in the past several years, I do recognize that the 
staff and commissioners are in general, more influenced in their 
outlook on an issue by those parties which have the most resources. 
Depending on the available resources, agency personnel should be given 
more opportunity to get out and develop a more comprehensive 
understanding of the maritime industry.
    10. Who are the stakeholders in the work of this agency? The direct 
stakeholders are all parties regulated by the agency which includes 
carriers and ocean transportation intermediaries. Indirectly, all 
parties who are involved in the U.S. international shipping industry as 
well as all those who benefit from this trade are stakeholders.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. I 
believe the proper relationship between my position and the agency's 
stakeholders is one where the commissioner is willing to listen with 
open mind to the concerns of all. This is the only way that the agency 
will be able to learn about all sides of a particular issue and arrive 
at a fair and balanced decision.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? For the most part, I 
believe that supervisors should provide guidance to employees. 
Supervisors should help employees understand the broader objectives and 
explain how the individual employee's work contributes to those goals. 
I'm not sure that I follow any particular supervisory model as much as 
I try to emulate those methods that I learned to admire through my own 
experiences. I have never had an employee complaint brought against me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have never had any working 
relationship with Congress. While in the past four years as an agency 
official I have been available to the Congress, I have only recently 
been asked to testify before a House Committee.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. I would continue 
to work to make sure that all affected parties have an opportunity to 
comment on issues of concern. Additionally, I would continue to 
encourage other agency personnel to obtain clarifications from this 
Committee on difficult issues. I believe that there should be and I 
would encourage the agency to maintain meaningful dialogue with the 
Committee on significant issues.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Referring back to question seven, I believe 
that the Congress should try to determine the role that ocean shipping 
will play in this increasingly global economy. Given the growing 
interdependence of countries, should we leave transport of goods in the 
hands of the marketplace or should we establish a scheme wherein ocean 
transportation serves as a kind of ``bus'' system? Depending on that 
decision, should antitrust immunity remain or should we make clear that 
antitrust immunity is limited? Given my bias toward strategic planning, 
I think it essential that the Congress address these kinds of 
fundamental questions first. Once these questions are answered, the 
proper regulatory scheme is relatively easy to put in place.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. Given the responsibilities of a 
particular board or commission, a particular president should nominate 
an individual who is knowledgeable and objective. Once confirmed, the 
individual should consider any views of a president as he/she would the 
views of any other interested party. Any qualified person would assign 
the proper weight to presented views before making a decision.

    The Chairman. Thank you. Welcome to the other 
Commissioners. Do you support and can you objectively and 
fairly implement the new Ocean Shipping Reform Act enacted by 
Congress less than 2 years ago?
    Mr. Won. Yes, I can.
    The Chairman. What about your statements in the summary of 
the report on fact-finding 23, questioning the adequacy and 
effectiveness of the new law to the press that the carrier 
antitrust immunity retained by Congress in 1998 should be 
significantly altered, and to a House/Senate conference 
committee that we should reconsider several amendments to OSHA 
rejected during the deliberations leading up to enactment of 
the new law, even though there is no basis upon which to 
determine whether the new law is inadequate?
    Mr. Won. Mr. Chairman, antitrust immunity I believe is one 
of those issues where reasonable men can disagree. I fully 
support the objective of antitrust immunity insofar as it 
relates to leveling the playing field of our U.S. flag fleet 
competing in the international arena.
    My concern with antitrust immunity is a rather narrow one, 
and it is more a philosophical type of concern about the 
potential of carriers with antitrust immunity to use that 
ability as leverage against the shipping public.
    Outside of that, I have absolutely no problems with the law 
as it is written. I believe, and I have stated in public on 
numerous occasions, that it will take, I believe, roughly a 3 
to 5-year period for OSRA to clearly show its intended 
benefits, and I stick to those statements today. We are in the 
process of preparing an interim status report of OSRA as part 
of a 2-year study that has been announced by the commission in 
the not-too-distant past, and there are clearly signs that the 
changes in the industry as a result of OSRA are indications 
that the environment is moving toward a more market-based type 
of system.
    The Chairman. Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Does Senator Inouye approve of your 
appointment?
    Mr. Won. I believe he does.
    Senator Hollings. Thank you. That is the only question I 
have.
    [Laughter.]
    The Chairman. Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. I have no questions.
    The Chairman. Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Did Senator Hollings approve your 
nomination?
    [Laughter.]
    Mr. Won. I would like to think so, Senator Breaux.
    The Chairman. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. No questions, Mr. Chairman.
    The Chairman. Well, Mr. Won, we intend to move your 
nomination on this markup so that you can be reappointed.
    Senator Gorton has arrived. Do you have any questions for 
Mr. Won, who is nominee for reappointment to a second term at 
the Federal Maritime Commission?

                STATEMENT OF HON. SLADE GORTON, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Gorton. No, Mr. Chairman.
    The Chairman. Congratulations, Mr. Won. We will vote on 
your reappointment at this markup. Thank you for your 
willingness to serve, and the fine job you have done in the 
past.
    Mr. Won. Thank you.
    The Chairman. This hearing is adjourned.
    [Whereupon, at 9:40 a.m., the Committee adjourned.]

                                <greek-d>

</pre></body></html>
